OIG Audit Report 09-14
Federal Bureau of Prisons Annual Financial Statement, Fiscal Year 2008
Audit Report 09-14
February 2009
Office of the Inspector General
Commentary and Summary
This  audit report contains the Annual Financial Statement of the Federal Bureau of  Prisons (BOP) for the fiscal years (FY) ended September 30, 2008, and  September 30, 2007.  Under the direction  of the Office of the Inspector General (OIG), KPMG LLP performed the audit, which  resulted in an unqualified opinion on the FY 2008 financial statements.  An unqualified opinion means that the  financial statements present fairly, in all material respects, the financial  position and results of the entity’s operations in conformity with U.S. generally  accepted accounting principles.  For FY 2007,  the BOP also received an unqualified opinion on its financial statements (OIG  Report No. 08-09).
KPMG  LLP also issued reports on internal control over financial reporting, and on compliance  and other matters.  The auditors  identified one significant deficiency in the Independent Auditors’ Report on  Internal Control over Financial Reporting, which has been reported annually since  FY 2002.  The significant deficiency relates  to vulnerabilities identified in the BOP’s information system controls  environment.  Specifically, improvements  are needed in the BOP’s logical access controls and system software general  controls.  No instances of non-compliance  with laws and regulations or other matters were identified during the audit.
The  OIG reviewed KPMG LLP’s reports and related documentation and made necessary inquires  of its representatives.  Our review, as  differentiated from an audit in accordance with U.S. generally accepted  government auditing standards, was not intended to enable us to express, and we  do not express, an opinion on the BOP’s financial statements, conclusions about  the effectiveness of internal control, conclusions on whether the BOP’s  financial management systems substantially complied with the Federal Financial  Management Integrity Act of 1996, or conclusions on compliance with laws and  regulations.  KPMG LLP is responsible for  the attached auditors’ reports dated November 5, 2008, and the conclusions  expressed in the reports.  However, our  review disclosed no instances where KPMG LLP did not comply, in all material  respects, with U.S.  generally accepted government auditing standards.
Return to OIG Home Page